<html>
<title> - EXAMINING DRUG-IMPAIRED DRIVING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    EXAMINING DRUG-IMPAIRED DRIVING

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2018

                               __________

                           Serial No. 115-149
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-235                      WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="680f1807280b1d1b1c000d0418460b070546">[email&#160;protected]</a>                                       
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BEN RAY LUJAN, New Mexico
MICHAEL C. BURGESS, Texas            YVETTE D. CLARKE, New York
LEONARD LANCE, New Jersey            TONY CARDENAS, California
BRETT GUTHRIE, Kentucky              DEBBIE DINGELL, Michigan
DAVID B. McKINLEY, West Virgina      DORIS O. MATSUI, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
MARKWAYNE MULLIN, Oklahoma           GENE GREEN, Texas
MIMI WALTERS, California             FRANK PALLONE, Jr., New Jersey (ex 
RYAN A. COSTELLO, Pennsylvania           officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................     7

                               Witnesses

Robert L. Dupont, M.D., President, Institute for Behavior and 
  Health.........................................................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................   185
Jennifer Harmon, Assistant Director, Forensic Chemistry, Orange 
  County Crime Lab...............................................    22
    Prepared statement...........................................    24
    Answers to submitted questions...............................   190
Colleen Sheehey-Church, National President, Mothers Against Drunk 
  Driving........................................................    29
    Prepared statement...........................................    32
Erin Holmes, Director, Traffic Safety Programs, Technical Writer, 
  Foundation for Advancing Alcohol Responsibility................    43
    Prepared statement...........................................    45
    Answers to submitted questions...............................   195

                           Submitted Material

Article entitled, ``Raising awareness about drugged driving,'' 
  Laker/Lutz News, February 7, 2018..............................    71
Report entitled, ``Marijuana-Impaired Driving: A Report to 
  Congress,'' National Highway Traffic Safety Administration, 
  2017...........................................................    74
Article from the Heritage Foundation, May 16, 2018...............   117
Brochure from Responsibility.org.................................   128
Report from the Governor's Highway Safety Association............   130
Report from the Institute for Behavioral Health..................   170
Article entitled, ``Oral Fluid Testing for Impaired Driving 
  Enforcement,'' The Police Chief, January 2017..................   173
Article entitled, ``License Revocation as a Tool for Combating 
  Drugged Driving,'' Impaired Driving Update, 2014...............   179

 
                    EXAMINING DRUG-IMPAIRED DRIVING

                              ----------                              


                        WEDNESDAY, JULY 11, 2018

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:02 p.m., in 
room 2123, Rayburn House Office Building, Hon. Robert Latta 
(chairman of the subcommittee) presiding.
    Present: Representatives Latta, Kinzinger, Lance, Guthrie, 
Bilirakis, Bucshon, Mullin, Walters, Costello, Walden (ex 
officio), Schakowsky, Dingell, Welch, Kennedy, and Pallone (ex 
officio).
    Staff Present: Melissa Froelich, Chief Counsel, Digital 
Commerce and Consumer Protection; Ali Fulling, Legislative 
Clerk, Oversight and Investigations/Digital Commerce and 
Consumer Protection; Elena Hernandez, Press Secretary; Paul 
Jackson, Professional Staff, Digital Commerce and Consumer 
Protection; Bijan Koohmaraie, Counsel, Digital Commerce and 
Consumer Protection; Drew McDowell, Executive Assistant; Greg 
Zerzan, Counsel, Digital Commerce and Consumer Protection; 
Michelle Ash, Minority Chief Counsel, Digital Commerce and 
Consumer Protection; Jeff Carroll, Minority Staff Director; 
Evan Gilbert, Minority Press Assistant; Lisa Goldman, Minority 
Counsel; and Caroline Paris-Behr, Minority Policy Analyst.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, good afternoon. And I would like to call 
the Digital Commerce and Consumer Protection Subcommittee to 
order.
    And before we get started, just to let our panelists know, 
we have had two other subcommittees running today. And so we 
were downstairs, but Health is still running, and we had 
another subcommittee in here on telecom a little bit ago. So we 
kind of have members here, there, and everywhere today. But I 
just want to let you know what is going on with the full 
committee and the subcommittee.
    But I appreciate you all being here today. And, as I said, 
we will now come to order, and I will recognize myself for 5 
minutes. And, again, good afternoon, and thank you for all 
appearing before us today.
    ``Drive sober or get pulled over.'' It is a phrase that we 
have heard in classrooms and television and radio ads and seen 
billboards along the highway. Everyone knows that driving while 
under the influence of alcohol is dangerous and unacceptable, 
and there are methods to identify and apprehend those who break 
the law.
    Unfortunately, the consequence of driving under the 
influence of drugs has not been elevated until recently, and 
drugged driving presents new challenges to both law enforcement 
and health professionals. Amid the devastating opioid crisis 
and as more states legalize the use of marijuana, tackling this 
problem is now more important than ever.
    According to the Governors Highway Safety Association, in 
2016, the number of drivers who were fatally injured in 
accidents with drugs in their system surpassed the number of 
those with alcohol in their system for the first time.
    As marijuana use increases in the general population, it 
continues to be the most common drug found in fatally injured 
drivers. Marijuana has been proven to increase drowsiness and 
decrease reaction speed, both of which limit a person's ability 
to drive safely.
    Twenty percent of drivers killed in crashes in 2016 tested 
positive for opioids. Part of this can be tied to addiction and 
negligence, but legally prescribed opioids also play a role. 
When a patient is prescribed an opioid for pain relief, they 
may not understand the possible side effects. It is important 
that physicians and pharmacists draw attention to the warning 
labels and give consumers the information they need to take 
their medication safely.
    Driving while impaired is illegal in all 50 states, but 
there is no definition of drug impairment, and testing 
practices vary from state to state. Unlike with alcohol, there 
is no widely used drug field test comparable to a breathalyzer. 
Instead, most officers learn how to recognize signs of drug 
impairment, including drivers' verbal and physical responses to 
questions and instructions. Teaching these methods has been a 
challenge, and the lack of data on drugged driving only 
exacerbates this challenge.
    New methods for roadside drug testing are being developed 
and deployed in several states, including saliva tests. At 
their summit in March, NHTSA committed to examining the 
operation of these tests and improving the data the government 
has about drugged-driving-related fatalities. Understanding the 
problem is an important first step to fixing it.
    Today, we are here to discuss what local, state, and 
Federal efforts are being made to combat this issue and what 
else needs to be done. Public education is an essential 
component of fighting drugged driving. We believe that, with 
improvements in awareness, the dangers of drugged driving will 
be as well understood as drunk driving. Additionally, we 
believe our witnesses can detail what Congress can consider to 
help stop this dangerous trend.
    Almost 1 year ago, this committee unanimously passed the 
SELF DRIVE Act. Getting safe self-driving cars on the road 
would prevent the senseless deaths of thousands of Americans on 
roadways every year. Until that day comes, we need to all do 
all we can to raise awareness of the dangers of impaired 
driving.
    More recently, this committee developed a package of over 
50 bills, including my legislation, the INFO Act, to address 
the opioid crisis. These bills were included in the bipartisan 
House-passed opioids package.
    My bill creates a public dashboard consisting of 
comprehensive information and data on nationwide efforts to 
combat the opioid crisis. Establishing a one-stop shop makes it 
easier for individuals to access and analyze data that could 
lead to real solutions that save lives.
    We are committed to the communities and families 
confronting this challenge on a daily basis and will continue 
investigating key areas that contribute to the crisis. I want 
to thank you all again for being with us today.
    And, at this time, I yield back the balance of my time, and 
I would like to recognize the gentlelady from Illinois, the 
ranking member of the subcommittee, for 5 minutes.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning and thank you to all our witnesses for 
appearing today. ``Drive sober or get pulled over.'' It's a 
phrase that we have heard in classrooms and television and 
radio ads, and seen on billboards along the highway. Everyone 
knows driving while under the influence of alcohol is dangerous 
and unacceptable, and there are methods to identify and 
apprehend those who break the law. Unfortunately, the 
consequences of driving under the influence of drugs has not 
been elevated until recently, and drugged driving presents new 
challenges to both law enforcement and health professionals.
    Amid the devastating opioid crisis, and as more states 
legalize the use of marijuana, tackling this problem is now 
more important than ever. According to the Governors Highway 
Safety Association, in 2016 the number of drivers who were 
fatally injured in accidents with drugs in their system 
surpassed the number of those with alcohol in their system for 
the first time.
    As marijuana use increases in the general population, it 
continues to be the most common drug found in fatally injured 
drivers. Marijuana has been proven to increase drowsiness and 
decrease reaction speed, both of which limit people's ability 
to drive safely.
    Twenty percent of drivers killed in crashes in 2016 tested 
positive for opioids. Part of this can be tied to addiction and 
negligence, but legally prescribed opioids also play a role. 
When a patient is prescribed an opioid for pain relief, they 
may not understand the possible effects. It is important that 
physicians and pharmacists draw attention to the warning labels 
and give consumers the information they need to take their 
medication safely.
    Driving while impaired is illegal in all 50 states, but 
there is no set definition of drug impairment and testing 
practices vary from state to state. Unlike with alcohol, there 
is no widely used drug field test comparable to a breathalyzer. 
Instead, most officers learn how to recognize signs of drug 
impairment, including driver's verbal and physical responses to 
questions and instructions. Teaching these methods have been a 
challenge, and the lack of data on drugged driving only 
exacerbates that challenge.
    New methods for roadside drug testing are also being 
developed and deployed in several states, including saliva 
tests. At their summit in March, NHTSA committed to examining 
the operation of these tests, and improving the data the 
government has about drugged-driving related fatalities. 
Understanding the problem is an important first step to fixing 
it.
    Today, we're here to discuss what local, state, and Federal 
efforts are being made to combat this issue, and what else 
needs to be done. Public education is an essential component of 
fighting drugged driving. We believe that with improvements in 
awareness, the dangers of drugged driving will be as well-
understood as drunk driving. Additionally, we believe our 
witnesses can detail what Congress can consider to help stop 
this dangerous trend.
    Almost 1 year ago, this Committee unanimously passed the 
SELF DRIVE Act. Getting safe, self-driving cars on the road 
would prevent the senseless deaths of thousands of Americans on 
our roadways every year. Until that day comes, we need to do 
all we can to raise awareness of the dangers of impaired 
driving.
    More recently, this committee developed a package of over 
50 bills, including my legislation, the INFO Act, to address 
the opioids crisis. These bills were included in the bipartisan 
House-passed opioids package. My bill creates a public 
dashboard consisting of comprehensive information and data on 
nationwide efforts to combat the opioid crisis. Establishing a 
one-stop-shop makes it easier for individuals to access and 
analyze data that could lead to real solutions and save lives. 
We are committed to the communities and families confronting 
this challenge on a daily basis and will continue investigating 
key areas that contribute to the crisis.
    Thank you again for being here and I look forward to your 
testimony. I yield to Ranking Member, the gentlelady from 
Illinois, Ms. Schakowsky, for 5 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman.
    I am happy that we are holding this hearing today on 
drugged driving. Today's hearing really comes down to one 
question: What is NHTSA doing in order to combat all impaired 
driving?
    ``Impaired driving'' is a term used to describe driving 
while affected by alcohol or legal or illegal drugs. Impaired 
driving risks the lives not only of the impaired driver but 
everyone else as well. Everyone else is on the road. And those 
substances have no place in our society. It is illegal in every 
state.
    The Foundation for Advancing Alcohol Responsibility funded 
a report in 2015 that found that drugs were found in the system 
of 43 percent of fatally injured drivers among those who were 
tested. While this statistic of course raises concern, I have 
questions and concerns about the methodology and accuracy of 
the statement and share many of the safety advocates' concerns 
that this could divert attention and resources from efforts to 
curb drunk driving.
    Alcohol continues to cause more deaths than drugs. In 2016, 
according to a report from January of this year issued by the 
National Academies, more than 10,000 people were killed in 
crashes involving a drunk driver.
    This issue is a complicated one because there are hundreds 
of drugs, whether they be prescription, over-the-counter, or 
illegal, that can and do impair driving. Complicating matters 
further, drugs of all kinds affect individuals differently. And 
data on drug presence, like put forth by the Foundation for 
Advancing Alcohol Responsibility, is often misleading.
    Further complicating matters, there is no national accepted 
method for testing the drug impairment of a driver. Positive 
drug tests do not necessarily yield accurate results, as trace 
amounts of many drugs can linger in a person's system for 
weeks, meaning that the driver may not necessarily be impaired, 
even when testing positive for some drugs.
    The National Highway Transportation Safety Administration, 
NHTSA, conducted a study in 2016 that found ``alcohol was the 
largest contributor to crash risks,'' and that ``there was no 
indication that any drug significantly contributed to crash 
risks.'' And yet, in 2018, NHTSA launched a National Drug-
Impaired Driving Initiative, and, in March, NHTSA held a Drug-
Impaired Driving Summit to engage on this issue.
    In Carol Stream, Illinois, local law enforcement is 
experimenting with a new swab test in order to test for a 
number of drugs, including marijuana, cocaine, amphetamines, 
methamphetamines, and opioids like heroin. The potential for 
such a test is undoubtedly promising, but I would urge caution, 
as such a test is unlikely to be admissible in court for some 
time. And, again, this may take precious resources away from 
preventing drunk driving.
    On the Federal level, I hope that NHTSA is working with 
state and local enforcement and transportation agencies to 
ensure that they are widely deploying resources to protect 
public safety. If NHTSA is going to prioritize drugged-driving 
enforcement and prevention and turns attention away from other 
risks, it is critical to ensure that we have accurate data to 
suggest that shifting their focus away is justified and, 
importantly, must ensure that they have accurate testing to 
ensure enforcement action is effective and accurate.
    I also hope that NHTSA continues to fulfill its mission of 
reducing death, injuries, and economic losses from motor 
vehicle crashes; that it works with other agencies to ensure 
that substance abuse treatment is also available for those who 
suffer from addiction. We, as a society and as Federal 
Representatives, must take a whole approach to curbing drunk 
and drugged driving, and that must include treating the 
underlying causes.
    I am trying to look at time. What do I have left? Twenty-
two seconds. Let me see.
    I don't want to leave the impression that I don't think 
drugged driving is a problem. I do. And I think we need to do 
everything we can to make sure that we have the proper data to 
justify its importance. We do know about drunk driving, and we 
want to make sure that that effort to stop it continues.
    And I yield back.
    Mr. Latta. Thank you.
    The gentlelady yield back, and the chair now recognizes the 
gentleman from Oregon, the chairman of the full committee, for 
5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman.
    Good afternoon, and I want to thank our witnesses for 
participating in today's hearing. We value your testimony.
    Sadly, we have all known too many lives cut short because 
of the reckless decision of some to get behind the wheel when 
impaired. About 1 in 4 traffic fatalities each year--that is 
roughly 10,000 lives lost--involves an alcohol-impaired driver.
    Now, part of the problem for those trying to detect and 
prevent drug-impaired driving is the lack of statistics 
available. Even with all the advances in vehicle safety and 
crash avoidance systems in recent years, they are not enough to 
stop the fatal consequences of driving while impaired, whether 
by alcohol, marijuana, opioids, or a deadly combination. It is 
a real issue in Oregon, both for employers and others, is 
trying to find something that detects appropriately marijuana 
consumption in those who are at work or on the road.
    According to one recent study by the Governors Highway 
Safety Association, in 2016, about 20 percent of fatally 
injured drivers who had drugs in their system tested positive 
for opioids, 20 percent, compared to 17 percent in 2006. So we 
are seeing an upward trend here in the presence of opioids and 
fatally injured drivers on the rise over the last 10 years.
    The Energy and Commerce Committee is all too familiar with 
the lethal effects of the opioid crisis, and drug-impaired 
driving is yet another fact of combating this national scourge.
    More than 50 bills from this committee were included in 
H.R. 6--that is the SUPPORT for Patients and Communities Act--
to address various aspects of this crisis, including 
prevention, treatment, and support for both those battling 
addiction as well as their families.
    This is a crisis we have been working to combat over 
multiple Congresses in a bipartisan way, and we will continue 
in our efforts to legislate and evaluate and legislate as we go 
forward.
    Drug-impaired driving creates unique challenges for law 
enforcement. Whereas nearly every law enforcement agency in 
America has the resources to test for driving under the 
influence of alcohol, similar resources are often lacking when 
it comes to illegal narcotics. The lack of scientifically 
confirmable evidence of drug-impaired driving can make it 
difficult for law enforcement officers and prosecutors to keep 
impaired drivers off our roads.
    However, statistics provided by the National Highway 
Traffic Safety Administration make it clear this danger is on 
the rise.
    So I look forward to the testimony you are going to give to 
the committee and your answers to our questions. You are on the 
front lines in this battle, and I know you have the expertise 
to help us understand how better to deal with it.
    I also want to mention that this month marks the 1-year 
anniversary of when this committee unanimously passed the SELF 
DRIVE Act. I know Ms. Schakowsky played a huge role in that, 
and Mr. Pallone and others on the committee. It is a national 
Federal framework to ensure safe and innovative testing, 
development, and deployment of self-driving cars. Getting safe 
self-driving cars on the road would go a long way to preventing 
a lot of highway fatalities, the more than 100 Americans who 
die every day behind the wheel.
    But we are waiting for the Senate. So, we need them to act. 
Then we can get a bill down to the President's desk and America 
can lead in the effort on creating self-driving vehicles and 
safer highways.
    So, Mr. Chairman, thanks for your great leadership on that 
effort, as well, and Ms. Dingell and others who have put so 
much time and energy into our SELF DRIVE Act. We need to pull 
out all the stops to find agreement, get the Senate to move, 
get agreement, get that down to the President.
    So, with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and thank you to our witnesses for appearing 
before us today to participate in our hearing on drug-impaired 
driving.
    Sadly, we have all known too many lives cut short because 
of the reckless decision of some to get behind the wheel 
impaired. About 1 in 4 traffic fatalities each year, that's 
roughly 10,000 lives lost, involves an alcohol- impaired 
driver. Part of the problem for those trying to detect and 
prevent drug- impaired driving is the lack of statistics 
available. Even with all of the advances in vehicle safety and 
crash avoidance systems in recent years, they are not enough to 
stop the fatal consequences of driving while impaired, whether 
by alcohol, marijuana, opioids, or a deadly combination.
    According to one recent study by the Governors Highway 
Safety Association, in 2016, about 20 percent of fatally-
injured drivers who had drugs in their system tested positive 
for opioids. Compared to 17% in 2006, we're seeing a stark 
trend here with the presence of opioids in fatally-injured 
drivers on the rise over the past decade.
    The Energy and Commerce Committee is all too familiar with 
the lethal effects of the opioid crisis, and drug-impaired 
driving is yet another facet of combating this national 
scourge. More than 50 bills from this committee were included 
in H.R. 6, the SUPPORT for Patients and Communities Act to 
address various aspects of this crisis, including prevention, 
treatment, and support both for the those battling addiction, 
as well as their families. This is a crisis we have been 
working to combat over multiple Congresses, and we will 
continue our efforts until we stem the tide.
    Drug-impaired driving creates unique challenges for law 
enforcement. Whereas nearly every law enforcement agency in 
America has the resources to test for driving under the 
influence of alcohol, similar resources are often lacking when 
it comes to illegal narcotics. The lack of scientifically 
confirmable evidence of drug-impaired driving can make it 
difficult for law enforcement officers and prosecutors to keep 
impaired drivers off of our roads. However, statistics provided 
by the National Highway Traffic Safety Administration (NHTSA) 
make it clear that this danger is on the rise.
    Today, I look forward to hearing from you, our witnesses, 
about what Congress can and should be doing to help those on 
the front lines detect and prevent drugged driving. I know your 
expertise will provide this committee a better understanding of 
the size and scope of the problem, as well as the obstacles to 
better detecting impaired drivers.
    I also want to mention that this month marks the 1-year 
anniversary of when this committee unanimously passed the SELF 
DRIVE Act, providing the first federal framework to ensure the 
safe and innovative testing, development, and deployment of 
self-driving cars. Getting safe self-driving cars on the road 
would go a long way to preventing the deaths of more than 100 
Americans who die every day behind the wheel.
    But until that day, we must do everything we can to prevent 
senseless and avoidable tragedies caused by drug-impaired 
driving. Thank you, and I yield back.

    Mr. Latta. Well, thank you very much.
    The gentleman yields back the balance of his time. The 
chair now recognizes the gentleman from New Jersey, the ranking 
member of the full committee, for an opening statement for 5 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today's hearing explores the complex topic of drugged 
driving. We know that driving under the influence of some drugs 
presents dangers to everyone on the road, and these drugs can 
impair judgment, slow reaction time, or distort perception. At 
the same time, there are many unknowns about the correlation of 
drugs and car crashes, and I expect we will address some of 
them today.
    Hundreds of different drugs, including prescription, over-
the-counter, and illicit drugs, can affect a person's driving. 
Unfortunately, the relationship between a specific drug's 
effect on driving ability is still not well understood. 
Different substances affect different people in different ways. 
Drugs are frequently used together. Often, illicit drugs are 
used in the presence of alcohol. And the combined effects of 
multiple drugs on driving performance requires more 
consideration.
    The scope of the drugged-driving problem is also unclear. 
Today, there is no nationally accepted method for testing 
whether a driver is impaired by drugs. Because trace amounts of 
certain drugs can linger in a person's system for weeks, a 
positive drug test result does not necessarily mean that the 
driver was impaired while driving. Moreover, the reporting of 
data of accidents involving drivers with drugs in their systems 
is inconsistent across jurisdictions, and nationwide data are 
incomplete.
    So we should take the issue of drugged driving seriously so 
that we can adequately address the problem, but because we must 
appropriately allocate resources, our review should be of 
impaired driving more broadly. We should not neglect the causes 
of impaired driving, especially alcohol-impaired driving, which 
remains the leading cause of traffic fatalities.
    The statistics for drunk driving are alarming. Every 2 
minutes a person is injured, every 51 minutes a person is 
killed in a drunk driving crash. The Centers for Disease 
Control and Prevention reported that, in 2016, more than 10,000 
people were killed in alcohol-impaired crashes. And drunk 
driving accounts for about 28 percent of all traffic-related 
deaths.
    And, as reported just last week, one-third of pedestrians 
killed in car crashes in 2016 were found to be over the legal 
alcohol limit. Of course, we should not blame the victims who 
try to do the right thing and not get behind the wheel when 
they have been drinking, but perhaps policies that encourage us 
to stay away from our cars also should consider that more 
people will be walking.
    While the number of deaths linked to drugged driving is 
less clear than other causes of impaired driving, no one should 
drive impaired. If you are unable to function normally or 
safely when operating a motor vehicle, you should not get 
behind the wheel. Even common over-the-counter medicines can 
have adverse effects on driving performance.
    And recent studies show that drowsy driving can be just as 
dangerous as drunk driving. In fact, my home State of New 
Jersey has a law that prohibits driving while drowsy. Under the 
law, a driver who goes without sleep for more than 24 
consecutive hours and causes a fatal crash can be charged with 
vehicular homicide and face up to 10 years in prison and a 
$100,000 fine.
    So impaired driving takes on many forms, but the wreckage 
left behind is the same. It has devastating consequences to 
family, friends, neighborhoods, and communities across the 
country. And I hope we continue to work together to fight 
impaired driving.
    I don't know if anyone wants any of my time, but, if not, I 
will yield back, Mr. Chairman.
    Mr. Latta. Well, thank you very much.
    The gentleman does yield back the balance of his time, and 
that will conclude opening statements from our members.
    And, also, the chair reminds members that all of their 
statements will be included in the record.
    Again, we want to thank our panel for being with us today 
to testify before the subcommittee.
    Today's witnesses will have the opportunity to give a 5-
minute opening statement, followed by a round of questions from 
the members.
    Our witness panel for today's hearing will include Dr. 
Robert L. DuPont, the President of the Institute for Behavior 
and Health; Ms. Jennifer Harmon, the Assistant Director of 
Forensic Chemistry at Orange County Crime Lab; Ms. Colleen 
Sheehey-Church, the national President of Mothers Against Drunk 
Driving; and Ms. Erin Holmes, the Director of the traffic 
safety programs and technical writer at responsibility.org.
    And, again, we appreciate your being here to give us your 
testimony.
    And, Mr. DuPont, you will be recognized first, and you are 
recognized for 5 minutes for your opening statement. Thank you 
very much.

STATEMENTS OF ROBERT L. DUPONT, M.D., PRESIDENT, INSTITUTE FOR 
   BEHAVIOR AND HEALTH; JENNIFER HARMON, ASSISTANT DIRECTOR, 
 FORENSIC CHEMISTRY, ORANGE COUNTY CRIME LAB; COLLEEN SHEEHEY-
CHURCH, NATIONAL PRESIDENT, MOTHERS AGAINST DRUNK DRIVING; AND 
   ERIN HOLMES, DIRECTOR, TRAFFIC SAFETY PROGRAMS, TECHNICAL 
    WRITER, FOUNDATION FOR ADVANCING ALCOHOL RESPONSIBILITY

              STATEMENT OF ROBERT L. DUPONT, M.D.

    Dr. DuPont. Thank you very much, Mr. Chairman.
    I am President of the Institute for Behavior and Health, a 
nonprofit organization committed to understanding the modern 
drug epidemic and to develop policies to reverse that, to turn 
it back.
    I am a graduate of the Harvard Medical School, a physician. 
I did my training at Harvard and also at NIH. And I have been 
working on the problem of drugged driving for four decades, 
including as the Director of the National Institute on Drug 
Abuse, the first Director. And I also served as the White House 
Drug Czar for two Presidents, Nixon and Ford, and have been 
active in that field all of my professional life.
    Two trends I want to bring to everybody's attention in all 
the numbers we talk about. One is the fact that the highway 
deaths have gone up for the first time in a long time, and they 
have gone up by a significant number. That is very important to 
notice. The second trend is the increasing presence of drugs in 
drivers tested, whether in fatal crashes or in the National 
Roadside Survey.
    I want to focus on four ideas that I hope will be useful.
    The first is thinking about alcohol as a model for 
understanding impaired driving. This is very useful in many 
ways, but there is one area where it has catastrophic effects, 
and that is the search for a point equivalent to a .08 BAC. 
That will never happen with marijuana and other drugs. It 
cannot happen, because there is no fixed relationship between 
the blood level and impairment for other drugs. Alcohol is the 
exception, not marijuana, in this. And we are going to have 
exactly that problem with every single drug, and it cannot be 
fixed by additional research. That is number one.
    Number two, the drug problem and alcohol problem are not 
just a drug like marijuana or alcohol, because what is dominant 
now is polydrug use. Many of the people who are arrested for 
alcohol have drugs present in them. Many of the people with 
drugs have alcohol. And so we are talking about a polydrug. To 
look at this drugged-driving problem as this drug and that drug 
misses what is happening to the drug epidemic in the United 
States. It is a polydrug epidemic.
    The third point is that they are talking about metabolites 
that are present and misleading. Let me assure you that there 
are no metabolites present when the parent drug is not in the 
brain. If the metabolite of marijuana is in the urine, at that 
time THC is in the brain. The metabolites are quickly 
eliminated. It is the THC that stays, not the metabolite.
    The fourth point is a thought experiment. We have for 
decades--and I was part of this--had safety-sensitive jobs be 
drug-tested, with a zero-tolerance standard. The prototype is 
commercial airline pilots. We have a zero tolerance for that 
because of safety.
    Now, I want you to think about the question of whether it 
makes sense to do that. Is that a good idea or a bad idea? And 
the reality is the pilots are professional at their job; the 
people driving in the cars are amateurs. Last year, we had zero 
deaths from commercial airlines and we had 40,000 deaths from 
the highway.
    Why in the world do we have a lower standard for drivers of 
cars than we have for pilots? And if you don't think it is 
needed, why don't you stop doing it for pilots? I think if you 
think about that a little bit, some thoughts will come clear 
about what is needed here.
    Now, I have, quickly running along, several points to get 
at.
    First of all, we need local and national data. The problem 
is deficient in having data. That is really important.
    We need to test every driver arrested for impairment. And I 
emphasize the testing comes after the arrest for impairment, 
not before. In the discussion, it acts as if we are just 
testing all drivers. No, we are testing drivers who have been 
judged to be impaired for the drugs. That is really important 
to understand.
    Third, we want to test every driver under 21, a zero 
tolerance for marijuana and other drug use. It is zero 
tolerance for alcohol under 21. You don't have to be .08 if you 
are under 21; any alcohol is a violation. It should be the same 
for marijuana. That would be a big step forward.
    We need to use administrative license revocation, which has 
been very helpful for the alcohol area, for the drug area as 
well.
    We need to test all drivers involved in fatalities and 
serious injury crashes for drugs and alcohol, not just for 
alcohol. And when you get one positive for alcohol, you don't 
stop testing, because you want to know about the drugs too. 
That is really important conceptually.
    And because it is a polydrug problem, we need to have 
penalties, additional penalties, for people who have multiple 
drugs. It is a different situation, and it requires a different 
response.
    NHTSA needs to organize the FARS data and publish those 
results annually as it now does with alcohol. It doesn't do it 
for drugs. It needs to do that. And NHTSA needs to establish 
guidelines for what drugs to test for and what the cutoff 
levels are.
    Finally, we need sentinel sites around the country that 
report on a real-time basis. I favor the shock trauma units, 
which are easy to get access to. And half a dozen of those 
around the country could give you real-time data, highly 
sophisticated results about traffic injuries, serious injuries, 
and monitor the problem on a real-time basis and not wait 5 
years for the answer.
    I think that the opportunity is immense right now, and this 
committee has a tremendously important positive role for it. I 
am very optimistic that we will move forward with it. But the 
idea that we are going to find the magic bullet that is going 
to solve this problem is completely wrong. And that idea that 
``look for the .08 equivalent for marijuana and other drugs and 
we will act when we get that'' is completely contrary to the 
public interest and public safety. We need to move now. We have 
lots of good ideas. They need to be implemented.
    And the idea that they are going to stop our interest in 
alcohol is completely wrong. These things go together. They are 
not two sides of a teeter-totter. Enhancing one enhances the 
other. And you see that in the behavior of what is going on. So 
to pose this as just--that is completely wrong.
    Thank you very much.
    [The prepared statement of Dr. DuPont follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much.
    And, Ms. Harmon, you are recognized for 5 minutes for your 
opening statement. Thank you.

                  STATEMENT OF JENNIFER HARMON

    Ms. Harmon. Thank you. And thank you again for having us 
here.
    Drug-impaired driving is not a new problem on our roadways. 
However, it is an ever-increasing one. That is certainly the 
case in Orange County. We are the sixth most populous county in 
the United States.
    My name is Jennifer Harmon. I am an assistant director with 
the Orange County Crime Lab. We are located in Santa Ana, 
California. Our laboratory offers comprehensive forensic 
testing to the county and all law enforcement entities 
contained within, which is over 30 municipal, State, and 
Federal agencies, including the district attorney's office and 
the Orange County Sheriff-Coroner Division.
    For over 8 years, our laboratory has worked collaboratively 
with law enforcement, prosecutorial, and public health 
partners, as well as traffic safety advocates, to better 
toxicological testing, research, and training on drug-impaired 
driving in our county and the State of California.
    We utilize state-of-the-art technology, comprehensively 
testing apprehended DUI suspect blood samples. These are post-
arrest samples. For nearly a year, we have been testing every 
driver, regardless of their blood alcohol level. This is a 
practice that has been advocated for for more than 10 years by 
the National Safety Council but is still not routine practice 
in public crime labs.
    Every sample is initially analyzed for alcohol, inhalants, 
and seven classifications of drugs, a total of about 50 drugs 
currently. And we report 72 different compound blood 
concentrations when we test for those compounds.
    Beginning in August of this year, every traffic-safety-
related case, living or deceased, will be tested for over 300 
drugs, to include illicit substances, prescriptions, over-the-
counter medications, and new synthetic and designer drugs.
    Our chemical testing methods in Orange County are a 
mechanism to assist in populating the scientific research and a 
means to collaborate with public health partners on drug-
impaired-driving solutions and impacts.
    As a laboratory, we test drug stability, impacts on 
collection methods, new technology options, including roadside 
saliva testing, and the correlation of drug levels on observed 
field impairments. Our testing schemes allow us to collect 
comprehensive countywide data on DUI suspects and fatally 
injured drivers.
    Our current countywide data suggests that 45 percent of our 
apprehended DUI drivers test positive for at least one drug 
other than alcohol. Twenty-nine percent of our drivers who have 
blood alcohol levels greater than the per se level of a .08 are 
positive for at least one other drug.
    Fifty-six percent of our fatally injured drivers test 
positive for at least one drug, nearly half of those alcohol 
and/or THC, the psychoactive drug found in marijuana. What is 
additionally alarming is that our non-alcohol-involved traffic-
related cases that are drug-positive, 40 percent of them test 
for three or more drugs.
    The success of the Orange County model over the last 
several years has been due to our collaborative efforts with 
stakeholders. We cross-train our dedicated toxicologists with 
traffic safety law enforcement, prosecutors, and public and 
private defense. Our experts attend law enforcement training 
and provide reciprocal training as well.
    Our team routinely interacts with law enforcement certified 
drug recognition experts, also known as DREs, ensuring that 
their expertise on drug impairments, metabolism, trends, and 
poly-pharmacy are a marrying of field observation and 
scientific theory. It ensures that our law enforcement partners 
are able to maintain their certifications; validate their in-
field, at-roadside impairment observations; and stay current on 
emerging drug trends.
    Law enforcement and toxicology expertise is critical to 
successful prosecutions of the drug-impaired in Orange County, 
as we have a 95-plus-percent conviction rate on DUID cases that 
are tried. The county also houses the statewide Traffic Safety 
Resource Prosecutor Program, which allows for information 
sharing in the criminal justice system at a statewide level.
    Crime labs, in general, are severely underfunded, 
especially in the area of forensic toxicology. Our laboratory 
alone in the last 8 years has seen a 60-percent increase in the 
number of exams conducted on our toxicology samples and an over 
100-percent increase in the number of DUID cases processed, 
with a 25-percent reduction in staffing.
    However, our county has made a conscious effort to utilize 
resources as efficiently as possible and ensure high-quality 
testing on every case, regardless of the charge or the presence 
of the most commonly encountered substances, like alcohol.
    To understand the scope of the drug-impaired-driving 
problem, comprehensive testing must be obligated by all 
laboratories conducting toxicology and traffic safety-related 
cases. Orange County's overall goal has been to share 
information, collaboratively train all stakeholders in the 
traffic safety system, and to collect data for overall better 
outcomes and educated traffic safety policy.
    Knowing the prevalence of the problem will result in better 
preventative health measures, safer roadways, and improved 
treatment for the drug-impaired. It also aids in improving 
forensic drug testing for all types of crimes beyond traffic 
safety, including drug-facilitated sexual assault, death 
investigation, and overdose.
    For those of us who work in America's crime labs, no day 
passes without seeing clear evidence that confirms the fact 
that our nation is in the grips of a drug epidemic. As 
discussed in my testimony, drugs impact the safety of 
motorists, but, of course, the impact goes far beyond our 
roadways.
    My colleagues and I appreciate the work Congress has done 
and continues to do in addressing this problem. Those of us at 
the local level remain committed to joining you in this 
worthwhile effort.
    I appreciate the opportunity to share.
    [The prepared statement of Ms. Harmon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much for your testimony.
    And, Ms. Sheehey-Church, you are recognized for 5 minutes.

              STATEMENT OF COLLEEN SHEEHEY-CHURCH

    Ms. Sheehey-Church. Thank you so much.
    Chairman Latta, Ranking Member Schakowsky, and the members 
of the subcommittee, I want to thank you for the opportunity to 
testify today before your subcommittee on the issue of drug-
impaired driving.
    My name is Colleen Sheehey-Church, and I serve as the 
national president of Mothers Against Drunk Driving, or MADD. 
Drugged driving is a serious issue and one that is gaining 
attention across our country. I look forward to sharing with 
the committee MADD's thoughts on how best to address this 
problem.
    I am uniquely qualified to testify today. My son, Dustin 
Church, was killed by a drunk and drugged driver on July 10, 
2004. At only 18 years old, Dustin had graduated from high 
school and had his whole life ahead of him. That night in July, 
Dustin had not been drinking. He was doing what most kids like 
to do and he was hanging out with friends when they decided to 
go grab a pizza.
    My husband, Skip, and I had told both of our sons about not 
drinking until age 21 and never drinking and driving. We also 
talked to them about the dangers of riding in a car with a 
drunk driver. I will never know why Dustin got into that car 
that night, but I am sure, because tests showed, that he was 
sober and had buckled his seatbelt.
    Unfortunately, the driver had been drinking and had illicit 
drugs in her system. That pizza run turned tragic when the 
driver lost control of her car, careened off the road, went 
over a cliff and into a river. The driver and passenger 
escaped, but not Dustin.
    Early in the morning, Skip and I got that knock on the door 
that no parent should ever receive. The pain of losing someone 
so senselessly to a preventable crime never goes away. That is 
why we must work harder than ever to eliminate drunk and 
drugged driving.
    In 2015, MADD updated our mission statement to include 
``help fight drugged driving.'' We want victims of drugged 
driving to know that we are here to serve their needs. We also 
know that the legalization of recreational and medicinal 
marijuana, the national opioid crisis, and the prevalence of 
prescription drugs in our society can only lead to more drug-
impaired driving on our roadways.
    What we don't know, however, is the role of drugs as causal 
factors in traffic crashes. This is why more research is 
needed. MADD is committed to a research- and data-driven 
agenda.
    I would like to call your attention to a report released 
earlier this year from the National Academy of Sciences which 
states that alcohol-impaired driving remains the deadliest and 
costliest danger on the U.S. roads today. Every day in the 
United States, 29 people die in an alcohol-impaired-driving 
crash--1 death every 49 minutes--making it a persistent public 
health and safety problem.
    The Insurance Institute for Highway Safety, also known as 
IIHS, reports that, out of all drugs, alcohol is the biggest 
threat on the roads. IIHS states that the battle against 
alcohol-impaired driving is not won and that states and 
localities should keep channeling resources into proven 
countermeasures to deter impaired driving, such as sobriety 
checkpoints.
    The NAS and IIHS reports are important because recent 
headlines would lead you to believe that drug-impaired driving 
has overtaken drunk driving in terms of highway deaths. That is 
simply not true. The truth is that we do not know how many 
people are killed each year due to drug-impaired driving.
    There are two major obstacles to determining the scope of 
the problem. First, we lack impairment standards for drugs. 
According to the 2013-2014 National Roadside Survey, marijuana 
is the second most commonly found impairing drug after alcohol. 
Yet marijuana has no impairment equivalent to a .08 for 
alcohol. For prescription drugs, there are also no impairment 
levels for drugs legally prescribed by one doctor.
    With alcohol impairment, we know what works. MADD's 
Campaign to Eliminate Drunk Driving in 2006 has created a 
national blueprint to eliminate drunk driving in our country. 
The campaign is based on proven strategy and supports law 
enforcement, all-offender ignition lock laws, advanced vehicle 
technology, and asks the public to help us support these 
initiatives. Congress has fully endorsed the campaign by 
funding its initiatives as part of both MAP-21 and the FAST 
Act.
    Mr. Chairman, MADD believes that the best way to move 
forward on drug-impaired driving is to do more work on drunk 
driving. MADD has long supported our heroes in law enforcement 
because we know that they are the men and women who actually 
get drunk and drugged drivers off the roads. Law enforcement is 
under enormous pressure, and nationwide arrests are down. This 
is a trend and must be reversed. And this is an area we 
encourage this committee to further explore. We must encourage 
law enforcement agencies all across the country to make traffic 
enforcement a priority. Sobriety checkpoints and saturation 
patrols catch and deter drunk and drugged driving.
    We also support proper training for law enforcement which 
helps them detect drugged drivers. Every law enforcement 
officer should receive the Standard Field Sobriety Testing 
Training. We also believe Advanced Roadside Impaired Driving 
Enforcement, ARIDE, training and the DRE, drug recognition 
expert, are important for law enforcement to be able to make 
drugged-driving arrests.
    In the mid to long term, we need to focus on further 
research and data to understand the scope of the drugged-
driving problem. One important piece of research that we urge 
Congress to reinstate and fully fund is the National Roadside 
Survey. This study is conducted roughly every 10 years, and the 
last Roadside Survey was last conducted 2013-2014. It is a 
critical tool that gives policymakers like yourselves important 
information about drivers who are using alcohol and then 
driving on the roadways.
    With the prevalence of marijuana legalization, both 
recreational and medicinal, it is critical that more work be 
done to understand impairment. We agree with the recent AAA 
study which states a .08 equivalent may not be possible with 
marijuana, but we still must better understand how marijuana 
impairment influences driving behaviors.
    In closing, I encourage the Congress to look at near-term 
solutions to stop recent increases in traffic fatalities. The 
National Academy of Sciences report made clear that alcohol is 
the leading killer on the roadways. Therefore, drunk driving 
should be a major focus in crash prevention. The good news is 
that doing more to prevent drunk driving will result in fewer 
drugged-driving deaths too.
    Law enforcement is the best defense against drugged and 
drunk drivers. We urge the committee to work with law 
enforcement leaders to make sure that traffic enforcement is a 
priority.
    And, finally, it is critical that we have the research and 
data to better understand this problem, to include impairment.
    Mr. Chairman, I am here because of my son, Dustin. He was 
killed by a drunk and drugged driver. It is my hope that the 
recommendations I am making on behalf of MADD will help to make 
progress on drunk driving and drugged driving and prevent 
others from the same tragedy that has devastated my family.
    Thank you again for the testimony.
    [The prepared statement of Ms. Sheehey-Church follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. And thank you very much for your testimony 
today. And on behalf of the committee and the subcommittee we 
mourn your loss, because what we are here for is to make sure 
that other families don't suffer the same loss that you have 
suffered, the loss of your son. So we appreciate your testimony 
today.
    Ms. Holmes, you are recognized for 5 minutes.

                    STATEMENT OF ERIN HOLMES

    Ms. Holmes. Thank you.
    Good afternoon, Chairman Latta, Ranking Member Schakowsky, 
and distinguished members of the subcommittee. Thank you for 
the opportunity to testify on the issue of drug-impaired 
driving.
    My name is Erin Holmes, and I am the Director of Traffic 
Safety at the Foundation for Advancing Alcohol Responsibility. 
Responsibility.org is a national not-for-profit organization 
and a leader in the fight to eliminate drunk driving and 
underage drinking. We are funded by leading distilled spirits 
companies, including Bacardi U.S.A., Beam Suntory, Brown-
Forman, Constellation Brands, DIAGEO, Edrington, Mast-
Jagermeister US, and Pernod Ricard USA.
    I would first like to begin by expressing my gratitude. 
Leadership is needed to address impaired driving in all of its 
forms, and I applaud the committee for recognizing the 
seriousness of this problem and the need to push for solutions 
to save lives.
    I also would like to acknowledge the efforts of the 
National Highway Traffic Safety Administration under the 
leadership of Deputy Administrator Heidi King. NHTSA has made 
drug-impaired driving a priority and is actively engaged in 
identifying countermeasures that work, furthering research, and 
increasing public awareness.
    While not a new issue, drug-impaired driving has come into 
greater focus in recent years due to the increasing number of 
states that have legalized marijuana and the spread of the 
opioid and heroin epidemic.
    Let me be clear: Drug-impaired driving is a serious public 
safety concern. In 2016, the most recent year for which we have 
data available, drugs were present in 43.6 percent of fatally 
injured drivers with a known drug test result.
    Further complicating the issue is the realization that it 
is not uncommon for drivers to have more than one substance in 
their system. Research has continually shown that drugs used in 
combination or with alcohol can produce greater impairment than 
substances used on their own. In 2016, 50.5 percent of fatally 
injured drug-positive drivers were positive for two or more 
drugs, and 40.7 percent were found to have alcohol in their 
system as well.
    Unfortunately, polysubstance-impaired drivers are often not 
identified if they have a blood alcohol concentration above the 
illegal limit of .08, which then, of course, has implications 
for supervision and treatment decisions.
    So what can be done to address this problem? To effectively 
reduce drug-impaired driving and save lives, a comprehensive 
approach must be employed. Drug-impaired driving is more 
complex than alcohol-impaired driving, and we have heard some 
of those explanations here already today as to why that is so. 
Therefore, different policy approaches are needed to address 
certain aspects of the problem. However, it is constructive to 
examine the policies and programs that have been effective in 
reducing alcohol-impaired driving and replicate these tactics 
when feasible. Some examples may include administrative license 
suspension, zero-tolerance laws for individuals under 21, and 
enhanced penalties for polysubstance use.
    I encourage Congress to take a multifaceted approach that 
involves a combination of education, policy, and enforcement 
initiatives, which are outlined in detail in my written 
submission.
    First and foremost, ongoing support and funding is needed 
to increase the number of law enforcement officers trained in 
Advanced Roadside Impaired Driving Enforcement, or ARIDE, and 
certified as drug recognition experts. Understanding that more 
resources are needed at the state level to accomplish this 
goal, responsibility.org partnered with the Governors Highway 
Safety Association to offer grants, which is now in its third 
year. Since that began, that program has resulted in more than 
1,500 officers receiving drug-impaired-driving training in 13 
different states.
    We also recommend supporting NHTSA in expediting oral fluid 
testing research and exploring the creation of minimum 
standards for these devices, like with breath testing or 
ignition interlocks. Oral fluid screening devices test for the 
presence of the most common categories of drugs. They are quick 
and easy to use and minimally invasive. These devices could be 
another tool for law enforcement to use as part of a DUI 
investigation.
    But identification of impaired drivers is only the first 
step. To improve outcomes, assessment must guide decisionmaking 
in the justice system. The screening and assessment of impaired 
drivers, whether drunk, drugged, or polyusers, for both 
substance use and mental health disorders is imperative to 
determine individual risk level and treatment needs. Congress 
should continue to support and make appropriations for 
assessment and treatment interventions and evidence-based 
criminal justice programs, such as DUI and treatment courts.
    Other important recommendations to consider include 
supporting the creation of national minimum standards for 
toxicological investigations, allocating additional highway 
safety funds to improve the capabilities of state labs, 
monitoring NHTSA's progress in creating large-scale education 
campaigns and providing appropriations to expand those should 
they be deemed effective, continuing to invest in research 
initiatives to better understand drug impairment and identify 
effective countermeasures.
    Congress, NHTSA, state highway safety offices, and traffic 
safety organizations must continue to work collaboratively to 
prevent the occurrence of this behavior, improve the 
administration of justice, and further knowledge in the field.
    Thank you so much, and we look forward to working 
collaboratively with you on these issues.
    [The prepared statement of Ms. Holmes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much.
    And we appreciate all your testimony given to the 
subcommittee today.
    And I just want to let members know that they did just call 
votes. So, if we could, I will try to get my first questions in 
first before we have to run down to vote.
    But if I could start, Ms. Holmes, with you, just following 
up on what you were talking about on what states are doing out 
there to address the drug-impaired driving, are there any 
Sstates that can be models for others? And why do you believe 
that some states are at the forefront in addressing this issue?
    Ms. Holmes. I think there are a number of different things 
that are being done well, depending on the area. Each state has 
individual and unique challenges and can be constrained by 
their laws.
    I would look to Colorado as a leader and example on public 
education and information campaigns. I believe they have done a 
phenomenal job, and they have worked towards expanding their 
messaging.
    They were put in a difficult position when Amendment 64 
became law back in 2012. They weren't prepared and had to put 
together a campaign relatively quickly. But since that time, 
their ``Drive High, Get a DUI'' campaign has expanded in its 
messaging, first from focusing and educating the public in 
Colorado that, while, yes, it is now legal to use marijuana, it 
is not legal to use and drive, because you can, in fact, get a 
DUI.
    They have also focused on increasing messaging around crash 
risk associated with marijuana-impaired driving. And they have 
also looked at different aspects of the problem, like consuming 
edibles and driving. And now they are implementing a new 
campaign called The Cannabis Conversation, where they reach out 
to communities of users.
    Other states, like Washington, have done a very good job 
with data collection. They have been able to go back and do a 
lot of analysis on fatally injured drivers to get a better 
sense of what the data is telling them: not only what 
percentage of fatally injured drivers over a lengthy period of 
time are testing positive for marijuana, but also who is 
testing positive for the active psychoactive component--that is 
the Delta-9-tetrahydrocannabinol--versus the inactive 
metabolites. They have also focused on being able to identify 
which drivers tested above or below their per se limit of 5 
nanograms.
    I would also commend California for the work that they have 
done on laboratory testing and investing in lab capabilities. 
They have also looked to establish a blueprint to be able to 
guide decisionmaking in the future.
    What I would always encourage all states to do is to look 
at this issue irrespective of what challenges they are facing 
with drug policy and with drug use in their states. The sooner 
you can start to plan ahead, the better prepared you will be. 
And states that have not gone down that road or have not been 
extremely hard-hit by either legalization or by the opioid 
epidemic, they are in the best position to learn the lessons 
from other jurisdictions and implement them or plan for the 
future.
    Mr. Latta. Thank you.
    Ms. Harmon, given your unique perspective on this issue, 
just talking about California, from the local level, what are 
some of the day-to-day obstacles in combating drug-impaired 
driving that you have seen?
    Ms. Harmon. Certainly, I think one of the largest obstacles 
that we continue to have in California is the relationship that 
our public has with law enforcement. Law enforcement is key to 
dealing with drug-impaired driving. Their impairment models 
that they are using, we have published research that we believe 
that they are effective even with drugs like marijuana.
    The other issue is the resources that the system as a whole 
has in addressing the type of testing that really needs to be 
done at a comprehensive level. Almost every jurisdiction, with 
the exception of two, only tests drivers above a .08 percent. 
In the last few years, we have been able to convince coroners' 
offices and medical examiner offices that marijuana or the 
active drug, THC, is an important drug to be testing. So we do 
now have our fatally injured drivers tested for marijuana.
    But the scope of testing that is done in our state is 
limited because of the resources that the laboratories have and 
the access they have in improving the technology, as well as 
the staffing resources that they need in order to deal with the 
problem.
    The other issue is that we are dealing with a vast number 
of drugs. Our five most prevalent drugs in our jurisdiction 
involve both illicit and prescription drugs. And the drugs are 
all tested slightly differently. And so you have to have state-
of-the-art technology in order to effectively do that and to be 
able to test for all of the drugs in a timeframe that is 
reasonable. Because drugs break down not just in a person's 
system but also in the samples. So if the samples are sitting 
for extended periods of time and not getting tested or only 
being screened and then at a later time being tested, you are 
affecting the quality of that evidence for a prosecution.
    Mr. Latta. Well, thank you very much.
    And my time is about ready to expire. And, as I said, we 
can go run down and vote. Would that be all right?
    Ms. Schakowsky. Right now?
    Mr. Latta. Right. We will recess?
    Ms. Schakowsky. OK.
    Mr. Latta. Yep. And we will vote and come right back.
    Thank you.
    We will stand in recess.
    [Recess.]
    Mrs. Walters [presiding]. All right. We are going to 
reconvene with questions and I am going to recognize Ranking 
Member Schakowsky.
    Ms. Schakowsky. Thank you very much.
    So here we are again, and I appreciate your waiting. I know 
it's kind of a drag, but that's our schedule. So I wanted to 
start by asking or actually just saying to Ms. Sheehy-Church I 
just appreciate you so much and, certainly, my heart goes out 
to you and the fact that you have made this a mission of yours 
I think is so incredibly important.
    Moms Against Drunk Driving, as you pointed out in your 
testimony, has really changed the face--we are not at zero, 
that's for sure, but the 21 years old, the zero tolerance, the 
.08--those are really attributed to the kind of grassroots 
activism often of coming out of tragedy.
    So I just want to say that. I am so grateful to you.
    So I am just wondering, would actually going further and 
lowering the legal blood alcohol level help reduce deaths from 
drunk driving? Is that even on the table or realistic?
    Ms. Sheehy-Church. Well, obviously, heard from NTSB that 
they were recommending .05. But the reality is once the 
recommendation comes in they kind of walk away and leave us to 
do the work and others--advocacy groups--to do the work to try 
to go to you all to try to see if there is an appetite and a 
willingness to do that.
    We are not there yet, and I think if we stick to the 
campaign that we currently have right now, which is really 
supporting law enforcement, we will save more lives faster than 
taking a look at that down the road.
    Impairment is impairment, and when we look at someone who 
has been arrested or accused of a DUI the fact is they are 
impaired no matter what it is.
    So I think spending that time right now maybe down the 
road. But I think right now, more research is needed but, more 
importantly, we need to stop what's happening on the roads.
    I hear a lot about the fatalities and the blood draws and 
everything on fatalities. We need to do something that's in 
advance. We have got to stop something now.
    We need a silver bullet now, and right now the only thing 
we have now is law enforcement--their ability to be boots on 
the ground and make sure that we do something before tragedy 
occurs.
    Ms. Schakowsky. Thank you.
    Let me acknowledge, by the way, we have dueling hearings, 
which is why I was not here for most of your--I heard your 
testimony. But so let me apologize if I repeat things that have 
already been said.
    I am just wondering if I could ask any of you, what else 
should be done to help stop drunk or impaired driving that can 
be done at the federal level?
    Any suggestions for us? And can I start with Dr. DuPont?
    Dr. DuPont. Yes, that was a point of my testimony. I gave a 
list of eight things that I thought were very important.
    Ms. Schakowsky. OK. I can go back to that, but maybe it 
bears repeating.
    Dr. DuPont. No. No. We need data, I think, is the most 
important thing of the nature and extent of the problem, and I 
think as we have that, it drives everything else.
    So that's the most important thing. For example, getting 
the FARS data--the fatally injured drivers--having all those 
drivers tested for drugs and alcohol and having----
    Ms. Schakowsky. So not just drunk drivers over .08 that get 
tested for other----
    Dr. DuPont. Every fatally injured driver----
    Ms. Schakowsky. Got it.
    Dr. DuPont [continuing]. Should be tested for drugs and 
alcohol. That's what I am thinking, and that NHTSA can 
establish guidelines for how to do that. Right now, it's hit or 
miss. One state will do one thing, another another.
    If NHTSA had a standard package--here's what we recommend 
for testing for fatally injured drivers--that would be a very 
helpful thing to--for us to do, for example.
    The simple thing to me is encourage laws for under the age 
of 21 to have zero tolerance. Marijuana is illegal in every 
state in the country under 21.
    If a 20-year-old driver has alcohol at below .08, it's 
still a violation, and we can do that with marijuana. And doing 
that with younger drivers--that's the 16 to 20--that makes a 
difference.
    That would be a step that would make things better, I 
think, that would be.
    The poly drug problem we talked about, it's where you are 
now and it's where we are going, into more and more of that. We 
need to have additional penalties for people who are using 
multiple----
    Ms. Schakowsky. I am looking at the clock. I guess I just 
ran out of how fast 5 minutes goes. I apologize.
    I will definitely look at all of your testimony and I think 
this is a bipartisan issue. I don't think there is any question 
about it, and if there are things that we should do.
    But I think data--does everybody agree--is really important 
for us to do.
    Thank you.
    Mrs. Walters. The chair will recognize the gentleman from 
Indiana, Mr. Bucshon.
    Mr. Bucshon. Thank you, Chairman.
    I was a surgeon before I was in Congress so I have had 
trauma patients who have been in car crashes and other things 
and seen some of the results of impaired driving, from that 
perspective.
    I also had another hearing in the Health Subcommittee so I 
am sorry I wasn't here for your testimony. But I've read 
through your testimony.
    One of the things as a physician that concerns me is across 
the country we are legalizing marijuana for recreational use. I 
personally oppose that based on medical grounds.
    Evidence has shown that in the developing brain, which 
would be a young person all the way up through their mid to 
late 20s that there is substantial evidence of permanent long-
term cognitive changes and that I think we are going to find 
later on are going to be substantial.
    That said, the other thing I am concerned about is in the 
short term, putting in legal sustainable ways to determine how 
impaired people are when they are driving when they are using 
marijuana exclusively, it's easier if they have alcohol at a 
high level or something.
    But I think you're going to start seeing more of that. 
You're going to start seeing more impaired driving.
    We had a case in my district where a young lady, a 
teenager, was sledding and unfortunately, was hit by an 
impaired driver.
    It's complicated, but the gist of it is the impaired driver 
didn't have any alcohol in their system.
    But, clearly, in the field, the officer felt that they were 
impaired and then, of course, when you go to court there is no 
substantial legal evidence that they were impaired at the time 
other than the word of the officer, because, as you know, THC 
doesn't stay in the bloodstream very long.
    Someone pointed that out in their testimony. It gets 
distributed into your body. It can stay in your hair and your 
fat for a long time. But in the short term, you can't 
determine, at least at this point, legally what determines 
impairment.
    So the question I have--and anyone could start to address 
this--is how do we begin to get a national legal standard for 
impairment?
    Ultimately, the states will do it but, how we did with the 
.08--we have ways of having the states adopt a national 
standard.
    How do we get to that point? Because I am pretty concerned 
about it. Indiana, honestly, it's not a partisan issue. Indiana 
is pretty red, but the legislators are talking about legalizing 
recreational use in our state.
    So we will start with Dr. DuPont and how can we get to a 
legal standard for impairment with marijuana use that will hold 
up in court?
    Dr. DuPont. Well, I think we do have tests for impairment. 
We have the field sobriety test and the ARIDE test. Those are 
tests for impairment.
    People are not drug tested unless they fail those tests. 
When they fail those tests and they have drugs present, that 
should be sufficient for the penalty, right there, and once you 
start to try to find a tissue level for any other drug, you're 
lost, and I use a simple example to make this point involving 
drug treatment and methadone is a treatment for drugs.
    Mr. Bucshon. Right.
    Dr. DuPont. And if you take a methadone dose of 40 
milligrams, that's lethal to a nontolerant person.
    Mr. Bucshon. All right.
    Dr. DuPont. A single dose. OK. For a methadone maintained 
patient, they typically take 100 milligrams a day and have no 
impairment--no impairment. I want you to hear that--no 
impairment.
    Mr. Bucshon. Oh, yes.
    Dr. DuPont. So if you have a tissue level for methadone, 
you can't say this one's impaired and that one isn't. The 
ultimate impairment is death.
    We don't have to have a scientific study. If they are dead, 
they are impaired, and that's at 40 milligrams. But at 100 
milligrams, there is no impairment. That's tolerance.
    Mr. Bucshon. Right.
    Dr. DuPont. And that's true for these other drugs. It's 
true for marijuana.
    Mr. Bucshon. So we got a ways to go to try to determine--
for example, in this----
    Dr. DuPont. You can't do it with a tissue----
    Mr. Bucshon [continuing]. In this particular case, this 
person's attorney is arguing that they were not impaired and 
there is no evidence that they were impaired other than the 
field sobriety tests and the opinion of the officer.
    Dr. DuPont. And we need to take that seriously along with 
the positive finding.
    Mr. Bucshon. Right.
    Dr. DuPont. That's what that----
    Mr. Bucshon. Anyone else have any comments?
    Ms. Holmes, I see you want to comment.
    Ms. Holmes. Yes, sir. I would really just emphasize what 
Dr. DuPont just said and that's why I think everybody in the 
traffic safety field emphasizes training officers in both ARIDE 
or certifying them as DREs so that they can confidently 
identify the signs and symptoms of drug impairment and then be 
able to articulate that in court in a convincing manner, and 
that becomes a training issue.
    So more appropriations for that type of law enforcement 
training is key.
    Mr. Bucshon. Makes sense. Thanks. My time is up. I yield 
back.
    Mrs. Walters. The gentleman yields, and the chair 
recognizes the gentleman from New Jersey, Mr. Lance.
    Mr. Lance. Thank you, Madam Chairman, and I may be asking 
questions that have already been asked. We have had a series of 
hearings today and I apologize for not being at this hearing 
for all of its aspects.
    I am from New Jersey and the new governor of New Jersey, 
Philip Murphy, wants to legalize recreational marijuana by the 
end of the year. This would occur through legislation at the 
state level in Trenton, our state capital.
    I am open to expanding access for medicinal use of 
marijuana but I strongly oppose legalization for recreational 
purposes.
    I am especially worried about the legalization of 
recreational marijuana's effects on our roadways. New Jersey is 
the most densely populated state in the Nation.
    As has been previously stated, the number of American 
drivers killed in automobile accidents in which drugs have been 
detected, that number has surpassed those killed in accidents 
where only alcohol was found. At least that's my understanding 
of the situation.
    Several states, of course, have already legalized marijuana 
for recreational use. To the distinguished and to each of you, 
could you please comment on trends or data that have been 
produced from the states that have legalized recreational 
marijuana as it relates to impaired driving?
    And I will start with you, Dr. DuPont.
    Dr. DuPont. I don't have the data for comparing the states. 
So somebody else will have to answer that.
    Mr. Lance. Thank you very much.
    Anybody on the panel who would like to respond to my 
question? Yes.
    Ms. Harmon. I can speak to what we have seen in California. 
We legalized in 2016 but recreational sales did not go 
officially online until January of this year.
    Currently, in our fatally injured drivers, we are in the 
range of 17 to 20 percent that are testing positive for the 
active drug found in marijuana, THC.
    We do know that both Colorado and Washington, once they 
legalized, saw almost a doubling of their fatally injured 
drivers originally from the pre-legalization to post-
legalization.
    We are not sure yet what California is going to look like 
because that data is as of 2017. We do expect the numbers to 
increase in 2018 and 2019. But, again, we are waiting because 
the full access didn't go online until this year.
    That being said, California had decriminalized marijuana 
since 1996 so our numbers may not be as substantial as Colorado 
and Washington.
    Mr. Lance. And, of course, there is a difference between 
decriminalization and legalization, as I understand it, and 
this debate is now occurring in New Jersey.
    But without final figures, it's your view, at least in 
California, that, unfortunately, tragically, the number of 
fatalities will increase or have increased as a result of this 
change in legislation?
    Ms. Harmon. Yes, and we are seeing an increase in drug- 
involved fatalities.
    Mr. Lance. Others on the panel?
    Ms. Sheehy-Church. I would say that, in terms of the 
statement marijuana being ahead of alcohol is not true.
    Mr. Lance. Yes.
    Ms. Sheehy-Church. But what I would agree with is that we 
are seeing a rise. I have my own opinion relative to marijuana, 
whether it's medicinal or that it's not.
    Mr. Lance. I seek your opinion. That's why you're on the 
panel.
    Ms. Sheehy-Church. Yes, I won't----
    Mr. Lance. And that's why I've asked everybody on the panel 
to comment.
    Ms. Sheehy-Church. I still think, though, that, speaking 
for MADD, that what we have to do is stick with our model that 
does work----
    Mr. Lance. Yes.
    Ms. Sheehy- Church [continuing]. And what works is exactly 
what Ms. Harmon says that we--and Ms. Holmes says is really 
looking at our--is our law enforcement being the first step, as 
putting the tools in the toolbox that they need so that they 
can better understand and stop the fatalities.
    These are accidents, by the way. These are crashes, because 
a crash is something that is done that could have been 100 
percent preventable.
    Mr. Lance. I see. My staff used the word crash. I changed 
it to accidents. So that's my fault, not the fault of my very 
competent staff.
    Ms. Sheehy-Church. It's OK.
    Mr. Lance. Ms. Holmes.
    Ms. Holmes. I'll very briefly speak to Washington State.
    Mr. Lance. Yes.
    Ms. Holmes. AAA FTS did a study that looked at trends both 
pre- and post-legalization for drivers testing positive for 
active THC and they found an increase from 8 to 17 percent.
    Mr. Lance. So that's double.
    Ms. Holmes. Washington Traffic Safety Commission has also 
done a lot of data analysis and the recent data shows that the 
number-one impairing substance in their fatal crashes is 
actually poly use, so either a combination of alcohol and drugs 
or multiple drugs on board, which is what we are primarily 
concerned about.
    Mr. Lance. I thank you and I thank the distinguished panel.
    And let me reiterate that it is my considered judgment, and 
I was the minority leader in the state senate in New Jersey 
before coming here, that it is not good policy, at least for 
our state, to legalize recreational marijuana.
    I thank the chair.
    Mrs. Walters. The chair recognizes the gentleman from 
Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you. Thank you, Madam Chair. I 
appreciate it very much.
    Ditto what the gentleman from New Jersey says as far as 
recreational marijuana as well. Yes, what's the--I have some 
questions here and I want to go through it.
    But what is the drug that--besides alcohol and maybe 
marijuana too that is--impairs the individual the most? Can you 
point to one particular drug with regard to driving?
    Ms. Sheehy-Church. I cannot answer that question if there 
is one over another. Impairment is impairment and different 
drugs, whether they are prescription or illicit, will react to 
an individual differently all the time.
    So I don't know whether anybody else has the data.
    Dr. DuPont. I don't think you'd find one drug that would 
stand out. Those are the two that are most prevalent. But there 
are lots of other drugs--methamphetamine, for example, cocaine, 
and all the new synthetic drugs.
    So it's an incredibly long list, and all of them are 
impairing. There aren't any drugs that aren't impairing.
    Mr. Bilirakis. Yes, and also, if you take the drugs 
legally--the prescribed--they could interact with each other 
and that's very important that we get the word out.
    How do you propose getting the word out besides the doctors 
telling the patients, look, you absolutely should not drive 
when you're under the influence, even though it's legally 
prescribed, for example, pain medication or what have you?
    Do you all have any suggestions on that?
    Ms. Holmes. I think in addition to physicians, also 
pharmacists. I think one of the things that we would certainly 
recommend to safeguard against opioid-impaired driving, 
particularly when we are talking about prescriptions used 
according to therapeutic doses, is to really make sure that at 
that point of contact where the patient is prescribed a new 
medication with impairing side effects that both the physician 
and pharmacists are having a conversation with that patient 
that very clearly outlines that they should not be operating 
heavy machinery and that a vehicle constitutes having 
machinery. We are not just talking about crane operators.
    Mr. Bilirakis. That's right.
    Ms. Holmes. But I think sometimes that doesn't occur and 
sometimes that fine print warning label is simply not sending a 
strong enough message.
    Mr. Bilirakis. Yes. I agree. I agree.
    Anyone else want to comment on that?
    Dr. DuPont. I think one of the things that's striking is 
that people often don't know they are impaired.
    Mr. Bilirakis. Yes.
    Dr. DuPont. When people do know they are impaired, that's, 
clearly, a sign to say if you feel impaired--if you feel high, 
don't drive. That's clear.
    Mr. Bilirakis. Yes.
    Dr. DuPont. The problem is that a lot of people feel just 
fine or even feel they are driving better when they are 
impaired and I think that makes it very difficult to say you're 
going to educate them about it.
    I think the answer is really to not drive after you use 
drugs.
    Mr. Bilirakis. Exactly.
    Dr. DuPont. But with respect to prescription drugs, I often 
prescribe myself medicines that are potentially impairing. When 
you start with a drug that is potentially impairing you want to 
be very concerned with that with a patient.
    Once they are on a stable dose, usually it's not a problem 
unless they add something else to it.
    Mr. Bilirakis. And that's the thing. The mixture of alcohol 
and a drug, whether it's marijuana or what have you.
    Dr. DuPont. To be sure, it can be very disturbing. But it 
becomes difficult to communicate that because the same drug as 
I use in my methadone example--the same dose of the drug, which 
is nonimpairing for a person who's used to it is very impairing 
to a person who isn't, and that makes it difficult to broaden 
these bright lines that people want to have.
    Mr. Bilirakis. Yes, I know. We got to get the message out. 
But you're right, everybody's different.
    So earlier this year, there was an article in our local 
newspaper in Pasco County, Florida--the Laker/Lutz News--that 
shared a tragic story of a constituent, a couple whose daughter 
and family were, sadly, killed by a drug-impaired driver.
    I'd like to insert that the article in the record, Madam 
Chair, please. I'd like to insert that into the record.
    Mrs. Walters. So without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Bilirakis. Thank you.
    These parents have since become strong advocates for 
raising awareness and education about drugged driving and I 
personally met with them and heard their heartbreaking stories.
    It highlights the urgency that we have today to address 
this issue and reverse the trends we have been seeing over the 
past few years.
    And, again, I have one other question here. Dr. DuPont, 
your testimony talks about the essential element of public 
education to help reduce drug-impaired driving.
    We are all aware of the don't drink and drive messaging 
that has been effective over the years. You say we should have 
an equivalent don't use drugs and drive messaging as well and 
that it should be backed by clear policies and enforcement.
    What should these policies look like at the Federal level 
to help with an education initiative? And I did see something 
the other day on TV, and I am not exactly sure what this means 
because I am 55 years old, but don't be baked and drive.
    So but anyway, if you could answer that question for me I'd 
appreciate it.
    Dr. DuPont. The don't be high and drive is what people in 
the marijuana field talk about and I think that's good advice 
not to be high and drive.
    I think that that's good. But I like the don't use drugs 
and drive, to be clear, and I think once you get past that, you 
get into very murky waters about safety.
    Mr. Bilirakis. OK. You also mentioned the additional 
concern regarding prescription drugs. I don't have time.
    All right. Well, I'll enter it into the record and I 
appreciate it, Madam Chair. Thank you. I yield back.
    Mrs. Walters. The gentleman yields.
    I am going to recognize myself for 5 minutes. As we have 
heard in Ms. Harmon's testimony, my home of Orange County, 
California, is a national leader in the fight against drug-
impaired driving.
    The alarming statistic that more Americans are killed in 
crashes in which drugs are detected compared to those which 
alcohol was found are reflected in the fact that Orange County 
saw a 40 percent increase in drug-impaired driving submissions 
to the crime lab from 2015 to 2016.
    In response, the OC crime lab and DA have developed a 
multi-agency drug-impaired driving initiative focusing on 
investigation, prosecution, and toxicology examination.
    The OC model serves as the foundation for California 
statewide drug-impaired driving model and the district attorney 
coordinates training for all of southern California.
    These local and state initiatives must be in collaboration 
with Federal efforts and I am assured knowing that former 
Orange County resident Deputy Administrator Heidi King is 
executing NHTSA's drugged driving initiative.
    Last Congress, we enacted the FAST Act, which included 
language I championed that required NHTSA to study marijuana-
impaired driving and how it affects individuals while driving, 
and I would like to submit the report for the record.
    [The information appears at the conclusion of the hearing.]
    Mrs. Walters. The state also authorized NHTSA to work 
toward a roadside test for impairment.
    Ms. Harmon, you mentioned the OC crime lab studies, 
roadside saliva testing, and other field test options. Can you 
further describe the challenges in developing an effective 
field test and the progress made toward that goal?
    Ms. Harmon. So we have done a couple of studies. We have 
published in 2016 and 2018 of this year where we looked at--we 
went back and looked at drivers with active THC in their system 
and looked at the current field work that's being done by law 
enforcement--the standardized field sobriety tests and the drug 
recognition expert program--and our studies concluded that 
although you can't correlate to a level of impairment, the 
current tools that law enforcement is using are very effective 
of finding THC-impaired drivers.
    Of the additional work that we have done, we did a pilot 
study with the Fullerton Police Department, looking at roadside 
saliva testing and the effectiveness of that testing versus our 
blood collection model that we have had in our county.
    We have contract phlebotomy for over 30 years, which allows 
us to reduce the time frame in which the blood is actually 
collected and how it's submitted to the laboratory and tested, 
and what we found is that the roadside saliva model testing is 
effective for illicit drugs--methamphetamine, heroin.
    It was OK for marijuana and it was not effective for 
prescription drugs. In Orange County, we have our third most 
prevalent drug--with the exception of including alcohol--is 
benzodiazepine, which is Xanax, which this would exclude many 
of those cases if we went to a roadside saliva model.
    So we continue to advocate that if we can get effective 
blood collection that it is a matrix that we can work with and 
that we already have literature that supports what levels are 
therapeutic, what levels are toxic, and what levels are fatal, 
which we can provide during testimony in drug-impaired driving 
cases.
    Mrs. Walters. What can Congress do to help develop an 
effective field test?
    Ms. Harmon. I think what's really needed is that we have 
effective tests and so what we really need from Congress is 
support in doing that.
    The standardized field sobriety tests model that law 
enforcement is using is not mandated in police academies.
    The California Highway Patrol mandates that this class--
it's 40 hours of training for every one of their officers. They 
also mandate the 16-hour ARIDE, which Ms. Sheehy-Church had 
mentioned before.
    They also mandate that 16-hour class as well. And, again, 
these are classes that are not mandated of all folks who are in 
law enforcement now.
    The additional thing is that the testing component needs to 
be available. The toxicology labs need to have the resources.
    Much like what the Federal level has done for DNA, they 
need to do that for toxicology, and it will enhance any type of 
case work that involves drugs if those models are used, and 
ensuring that the laboratories actually have the resources they 
need to test all drivers and to test decedent drivers for the 
drugs that may be in their system.
    Mrs. Walters. OK. And you said according to the DA 
marijuana and prescription drugs that count for the majority of 
drug-impaired driving cases in Orange County and you mentioned 
the crime lab will soon begin testing for over 300 drugs in 
every traffic safety related case.
    Can you explain what factors led the crime lab to expand 
the types of drugs tested?
    Ms. Harmon. We expanded the testing because this is what we 
are seeing. We did a proof of concept research project a couple 
of years ago and saw that over 30 percent of drugs were being 
missed in our cases.
    So we have led efforts over the last several years to 
become more comprehensive in the testing that we do because 
many of our cases are, as already reflected by this panel, poly 
pharmacy cases.
    As I mentioned, over 40 percent of our nonalcohol DUIs have 
three or more drugs in their system. We want to be able to give 
a comprehensive picture on the data that's being provided.
    Mrs. Walters. OK. Thank you, and I am out of time.
    Ms. Schakowsky. Can I ask one more?
    Mrs. Walters. Sure. I'll yield to the gentlelady.
    Ms. Schakowsky. Thank you, Madam Chair. I really appreciate 
it.
    So I am trying to--what you said, Dr. DuPont, about 
different people having different levels of tolerance.
    Now, we set .08. I am assuming that someone like me, who's 
a horrible drinker--probably one little glass of wine and I 
might be impaired--I don't know--but yes, we set a firm level.
    What you were saying, can we set levels that are just for 
everyone for these other drugs, for these other--for marijuana, 
et cetera, because I would think that otherwise it's impossible 
to define what's impaired and what isn't.
    So I don't know. Whoever wants to answer that but----
    Dr. DuPont. Well, I think the answer is no, you can't do 
that, and let me just mention about with alcohol. It's not as 
clear cut as you may think that somebody who's under .08 is not 
impaired and somebody who is over .08 is. That's called a per 
se standard.
    There are many people who are alcoholics who are above .08 
and they pass the field sobriety tests. There are other people 
who are under .08 who fail the field sobriety tests. And you 
can see this very easily from some of the field sobriety data 
that when people--if you look at the people who fail on 
alcohol, the average level is not .09.
    The average level is .15, because many people who are heavy 
drinkers can pass the field sobriety tests.
    So what I am saying is this is a political decision what 
the number is. It's not a science decision, and----
    Ms. Schakowsky. But there is a practicality about it, too.
    Dr. DuPont. It's very important. It's a wonderful thing.
    Ms. Schakowsky. Yes.
    Dr. DuPont. I am in support of it. But not to understand 
the science behind it leads you to want to find that for other 
drugs and I am telling you you can't do it--what's happening 
now, which is tragic, is that the search for that tissue level 
for other drugs is stopping us from doing the things we can do 
right now.
    We say we have got to wait for that. We have got to have 
new research. That is very destructive to say that sure, let's 
have more research.
    But let's do the things we can do now--there is lots of 
things to do, and the field sobriety test is a wonderful test. 
It does detect the impairment very well.
    Ms. Harmon was talking to me--when they fail the field 
sobriety tests, 96 percent of the people have drugs or alcohol 
present. That tells you that field sobriety test is a very good 
test. You don't need another test. That test is good.
    Let's use it right now. Yes, do more research. But use what 
we have got now because what we have got now is good, and 
what's happening in Orange County is a model for the country.
    Ms. Schakowsky. OK. Is there any difference of opinion to 
weigh in at all? OK. Did you want to?
    Ms. Sheehy- Church. There is no difference of opinion. I 
absolutely agree with the doctor.
    Ms. Schakowsky. Ms. Holmes as well?
    Ms. Holmes. Yes, and to that, I would add that we already 
have impairment-based laws in every single state, which is why 
that somebody who's impaired with below .08 can be prosecuted 
for a DUI--similarly, for drugs.
    So the emphasis really then should be making sure officers 
are, again, trained to be able to----
    Ms. Schakowsky. OK.
    Ms. Sheehy-Church [continuing]. Identify and articulate 
signs of impairment.
    Ms. Schakowsky. OK. And Ms. Harmon, you're on board with 
that too? Yes?
    Ms. Harmon. I agree completely.
    Ms. Schakowsky. OK. Great. Thank you. That's helpful.
    Mrs. Walters. Thank you. Seeing that there are no further 
members wishing to ask questions, I'd like to thank all of our 
witnesses for being here today and thank you for being patient 
with us while we had to go vote.
    Before we conclude, I would like to include the following 
documents to be submitted for the record by unanimous consent: 
an article from the Heritage Foundation, a policymakers 
checklist from responsibility.org, a report from the governor's 
Highway Safety Association, a report from the Institute for 
Behavioral Health, an article from the Police Chief magazine, 
and an article from Impaired Driving Update.
    [The information appears at the conclusion of the hearing.]
    Mrs. Walters. Pursuant to committee rules, I remind members 
that they have 10 business days to submit additional questions 
for the record and I ask that witnesses submit their response 
with 10 business days upon receipt of the questions.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 3:21 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
